           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      ADMINISTRATIVE COSTS
         CLAIMED BY THE
      MINNESOTA DISABILITY
     DETERMINATION SERVICES

     September 2004   A-05-04-14036




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM
Date:       September 21, 2004                                                    Refer To:

To:         James F. Martin
            Regional Commissioner
             Chicago

From:       Assistant Inspector General
             for Audit

Subject: Administrative Costs Claimed by the Minnesota Disability Determination Services
            (A-05-04-14036)


            OBJECTIVES
            The objectives of our audit were to (1) evaluate Minnesota Disability Determination
            Services’ (MN-DDS) internal controls over the accounting and reporting of
            administrative costs, (2) determine whether costs claimed were allowable and properly
            allocated and funds were properly drawn, and (3) assess limited areas of the
            electronic data processing general controls environment.

            BACKGROUND
            Disability determinations under both Disability Insurance and Supplemental Security
            Income are performed by Disability Determination Services (DDS) in each State or
            other responsible jurisdictions. Such determinations are required to be performed in
            accordance with Federal law and underlying regulations.1 In carrying out its
            obligation, each DDS is responsible for determining claimants’ disabilities and
            ensuring that adequate evidence is available to support its determinations.2




        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
        2
            20 C.F.R. §§ 416.1013(a) and 416.1014(a)
Page 2 – James F. Martin


SSA reimburses the DDS for 100 percent of allowable program expenditures up to the
limit of its funding authority. The DDS draws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments (ASAP)
system in accordance with Federal Regulations3 and an intergovernmental agreement
entered into by Treasury and the State of Minnesota under the Cash Management
Improvement Act (CMIA).4
The MN-DDS submits a State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) to SSA quarterly, for each Federal Fiscal Year (FY). These
forms report cumulative disbursements of program funds and the remaining balance of
unliquidated obligations.
The Minnesota Department of Employment and Economic Development (DEED) is the
parent agency for the MN-DDS, which is located in St. Paul, Minnesota.5 See Appendix
B for our Scope and Methodology.


RESULTS OF REVIEW
Generally, the MN-DDS had effective internal controls over the accounting and reporting
of administrative costs and the costs it claimed during our audit period were allowable.
However, improvements were needed in the areas of cash management and general
security controls.
CASH MANAGEMENT

Funds to cover MN-DDS expenditures are drawn from the ASAP system. For each FY,
the MN-DDS is assigned an account identification number in ASAP. Cash draws made
from the account identification number are to reimburse MN-DDS for expenditures
incurred during the same period as the account identification number’s FY reporting
period.6

We found that the MN-DDS’s former parent agency, Department of Economic Security
(DES), drew funds from one FY’s ASAP account to pay for another FY’s expenditures.
Specifically, DES:
•     Drew funds from the FY 2001 ASAP account to pay FY 2002 expenditures. This
      caused cash draws for FY 2001 to exceed expenditures by $131,295, during the
      quarter ended December 31, 2001. The incorrect cash draws were subsequently
      corrected in the ASAP system.


3
    31 C.F.R. 205.
4
    Public Law 101-453,104 Stat. 1058.
5
 During our audit period, the Minnesota Department of Economic Security was the MN-DDS’s parent
agency. DEED became the MN-DDS’s parent agency in FY 2003.
6
    31 U.S.C. § 1502.
Page 3 – James F. Martin


•     Drew funds from the FY 2002 ASAP account to pay FY 2003 expenditures. This
      caused FY 2002 cash draws to exceed expenditures by $106,457, during the quarter
      ended December 31, 2002. The incorrect cash draws were subsequently corrected
      in the ASAP system.

Federal statute states, “The balance of an appropriation or fund limited for obligation to
a definite period is available only for payment of expenses properly incurred during the
period of availability or to complete contracts properly made within that period of
availability and obligated consistent with section 1501 of this title.”7

We did not review the cash draw procedures of the MN-DDS’s new parent agency,
DEED. However, SSA should ensure that the MN-DDS and DEED are aware of the
correct cash draw procedures for Federal funds.

GENERAL CONTROLS

Our assessment of limited areas of the electronic data processing general controls
environment disclosed that the MN-DDS needs to finalize the development of and
implement its contingency plan. Furthermore, the MN-DDS needs to identify and use
an offsite storage facility for its electronic data backup files. The MN-DDS also needs to
perform a risk assessment of its facility to determine if an intrusion detection system is
needed to properly secure the DDS’s office space and if perimeter security is needed at
the secondary entrance door.8

Contingency Plan

The MN-DDS did not have a contingency plan to follow in the event of a disaster that
impacts DDS operations. SSA instructions state, “Events may occur which will prevent
normal operations and interfere with the accomplishment of the mission of the DDS.
Because of this, each office must prepare a contingency plan.”9 The MN-DDS stated
that a contingency plan is under development. The delay in implementing the
contingency plan could result in a longer recovery period following a catastrophic event.
The implementation of a contingency plan should be a priority for the MN-DDS.

Electronic Data Processing Backup Files
Data from the MN-DDS’s Electronic Data Processing (EDP) systems is backed up daily
and the files were stored in a fire-proof vault at the MN-DDS. However, DDS Security
guidelines recommend that a copy of backup data files be stored at an offsite location.10

7
    31 U.S.C. § 1502.

8
     DDS Security Document (September 2003), page 35.

9
    SSA, POMS, DI 39566.050.
10
     DDS Security Document (September 2003), page 58.
Page 4 – James F. Martin


The MN-DDS stated that it plans to identify an offsite storage location. Until it does so,
there is a risk that the data files may be destroyed or be inaccessible under certain
situations. The identification of an offsite data storage facility should be a priority for the
MN-DDS.

Intrusion Detection System

The MN-DDS did not have an Intrusion Detection System (IDS). DDS Security
guidelines state, “An intrusion detection system is required in all facilities unless
determined unnecessary (For example, office is located in a Government building with
24-hour/day-guard service, and the guard has the ability to adequately monitor the DDS
facility).”11 MN-DDS did not have an IDS because it believes the facilities are
adequately protected by the 24-hour guard stationed in the first floor lobby. However,
the guard may not be able to adequately monitor the MN-DDS’s space, since he/she is
located in the building’s lobby. Furthermore, the MN-DDS is located in private office
space that is accessible to the general public. Accordingly, there is an increased risk
that unauthorized individuals could gain access to the MN-DDS’s office space during
non-working hours and access the sensitive SSA information stored therein.

Secondary Entrance Door
One of the MN-DDS’s hallway entrance doors does not have a perimeter security
measure, such as a peephole, security window or camera. The DDS Security
guidelines state that “…perimeter doors should have peepholes if visibility is
restricted.”12 Although the MN-DDS has a camera to monitor the hallway near the
office’s main entranceway, the secondary entrance door is too far from the camera to be
adequately observed. The lack of a perimeter security measure prevents the MN-DDS
staff from seeing who is outside the door before it is opened and increases the risk of
entry by an unauthorized individual.

CONCLUSIONS AND RECOMMENDATIONS
Generally, the MN-DDS had effective internal controls over the accounting and reporting
of administrative costs and the costs it claimed during our audit period were allowable.
However, improvements were needed in the areas of cash management and general
security controls. Accordingly, we recommend that SSA instruct the MN-DDS and
DEED to:

      1. Ensure that funds drawn from a FY ASAP account identification number are used
         only to pay expenditures incurred during the same period as the account
         identification numbers FY reporting period.



11
     DDS Security Document (September 2003), page 36.

12
     DDS Security Document (September 2003), page 35.
Page 5 – James F. Martin


   2. Develop and implement a contingency plan that is in accordance with SSA
      instructions.

   3. Identify an offsite electronic data storage facility.

   4. Perform a risk assessment to determine if an IDS is needed to properly secure
      the DDS’s office space as outlined in the DDS Security Document.

   5. Perform a risk assessment to determine if a perimeter security measure is
      needed for the secondary entrance door, for example a peephole, security
      window or camera as outlined in the DDS Security Document.

AGENCY COMMENTS
In commenting on our draft report, SSA agreed with our recommendations. See
Appendix C for the full text of SSA’s comments.

DEED COMMENTS
DEED did not agree with our recommendations that a risk assessment be performed to
determine if an IDS is needed to properly secure the MN-DDS’s office space and if
perimeter security is needed at the secondary entrance door. DEED stated that the
MN-DDS's current security measures, camera monitoring and recording and on-site
building security guards, meet the intent of SSA’s physical security guidelines as
outlined in the DDS Security Document. DEED further stated that staffing issues affect
the feasibility of an IDS. See Appendix D for the full text of DEED’s comments.

OIG RESPONSE
We remain committed to our recommendations. While we acknowledge DEED's
comments on its current physical security measures, the MN-DDS is not in compliance
with SSA's guidelines for DDS physical security. Specifically, SSA's physical security
guidelines specify that an IDS is required in all DDS facilities unless determined
unnecessary and that perimeter doors should have peepholes if visibility is restricted.
When a DDS is unable to meet the physical security guidelines, SSA requires a risk
assessment to be performed and included in its overall DDS Security Plan. The risk
assessment should include specific elements, such as a description of the risk
associated with not implementing a physical security guideline.




                                                  S                     for
                                                  Steven L. Schaeffer
                                    Appendices
Appendix A – Acronyms

Appendix B – Scope and Sampling Methodology

Appendix C – Agency Comments

Appendix D – DEED Comments

Appendix E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
ASAP       Automated Standard Application for Payments

C.F.R.     Code of Federal Regulations

CMIA       Cash Management Improvement Act

DEED       Minnesota Department of Employment & Economic Development

DES        Department of Economic Security

DDS        Disability Determination Services

DoF        Department of Finance

EDP        Electronic Data Processing

FY         Fiscal Year

IDS        Intrusion Detection System

MN-DDS     Minnesota Disability Determination Services

POMS       Program Operations Manual System

SESAS      State Employment Security Agency System

SSA        Social Security Administration

SSA-4513   State Agency Report of Obligations for SSA Disability Programs

Treasury   Department of the Treasury

U.S.C.     United States Code
                                                                     Appendix B

Scope and Sampling Methodology
SCOPE

To achieve our objectives, we:

 •   Reviewed applicable Federal law and regulations, pertinent parts of Social Security
     Administration (SSA)’s Program Operations Manual System (POMS) and other
     criteria relevant to administrative costs claimed by Minnesota Disability
     Determination Services (MN-DDS) and drawdowns of SSA program grant funds.

 •   Reviewed reports issued by the Minnesota Office of the Legislative Auditor. These
     reports presented the results of audits of the Minnesota Department of Economic
     Security (DES) and the State Department of Finance (DOF). The DES was the
     parent agency for MN-DDS during our audit period. The Minnesota Department of
     Employment and Economic Development (DEED) took over the parent agency role
     as a result of a State re-organization in 2003. The DOF is responsible for
     maintaining the financial and information systems used by the State agencies.

 •   Interviewed staff and officials at MN-DDS, DEED, and SSA Chicago Regional
     Office.

 •   Reviewed State policies and procedures related to personnel, medical services,
     and all other nonpersonnel costs.

 •   Evaluated and tested internal controls regarding accounting, financial reporting and
     cash management activities.

 •   Reconciled State accounting records to the administrative costs reported by MN-
     DDS on the State Agency Report of Obligations for SSA Disability Programs
     (Form SSA-4513) for Federal Fiscal Years (FY) 2001 and 2002.

 •   Reviewed the administrative costs MN-DDS reported on its Forms SSA-4513 for
     FYs 2001 ($17,539,394) and 2002 ($18,727,156).

 •   Examined certain administrative expenditures (personnel, medical service, and all
     other nonpersonnel costs) incurred and claimed by MN-DDS for FYs 2001 through
     2002 on the Form SSA-4513. We used statistical sampling to select expenditures
     to test for support of the medical service and all other nonpersonnel costs.

 •   Examined the indirect costs claimed by MN-DDS for FYs 2001 and 2002.




                                          B-1
 •   Discussed indirect costs with the cognizant agency for Minnesota, the U.S.
     Department of Labor.

 •   Compared the amount of SSA funds drawn for support of program operations to
     the expenditures reported on the Form SSA-4513.

 •   Reviewed MN-DDS electronic data processing general controls and physical
     security at their Metro Square complex offices in St. Paul, Minnesota.

We concluded that the electronic data used in our audit was sufficiently reliable to
achieve our audit objectives. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements from the electronic files.

We performed work at the MN-DDS and DEED in St. Paul, Minnesota and the Office of
Audit in Chicago, Illinois. We conducted field work from October 2003 through
May 2004. The audit was conducted in accordance with generally accepted
government auditing standards.

SAMPLING METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained data extracts from DEED for FYs 2001 and 2002 to use in statistical
sampling. Additionally, we randomly selected a month from the 2 year audit period and
reviewed supporting documents for all Medical Consultants under contract to MN-DDS.
We also randomly selected one month from the audit period and reviewed all Non-DDS
Personnel Costs claimed as electronic data processing (EDP) Maintenance and
Miscellaneous Costs on the SSA-4513.

Personnel Costs

We randomly selected one pay period (April 2002) in the most recent year under review.
We then selected a random sample of 50 employees for review and testing of the
payroll records.

For medical consultant costs, we randomly selected one pay period (March 2002) from
the most recent year under review. We selected all medical consultants during that time
period and verified that the medical consultants were paid in accordance with the
approved contract.




                                           B-2
Medical Costs

We stratified medical costs into medical evidence of record and consultative
examinations, and selected a stratified random sample of 100 items (25 items from each
stratum in FYs 2001 and 2002).

Indirect Costs

We determined that the State Wide Indirect Cost Allocation to the parent agency (DES)
was performed using a Fixed Basis Cost Allocation Agreement approved by the
cognizant Federal agency (U.S. Department of Health & Human Services). The amount
allocated to each State department and agency was based on estimated central service
costs. In a subsequent fiscal year, the cognizant agency compared the actual costs for
that year with the estimated costs and adjusted the future year rate to compensate for
the difference. The Cost Allocation Agreement states that costs allocated to the State
departments and agencies under the agreement are approved for further allocation to
Federal grants, contracts and other agreements performed at those departments and
agencies. We reviewed the State-Wide Allocation for the randomly-selected month of
May 2001, to verify that the State used the approved fixed amount to allocate central
service costs to the DES.

We determined that DES used the State Employment Security Agency System
(SESAS) cost accounting system software, originally developed for the U.S. Department
Of Labor - Employment and Training Assistance division, to allocate costs to all of its
components. This software takes all parent agency administrative costs that cannot be
directly charged to a specific cost center and allocates these costs to all organizational
components of the agency, based on the relative percentage of full-time equivalents.
The allocation includes the parent agency’s share of the State-Wide Indirect Cost
Allocation. We reviewed the allocation of DES indirect costs in the randomly-selected
month of April 2002, to verify that the SESAS software allocated the appropriate
percentage of these costs to the MN-DDS.




                                           B-3
All Other Nonpersonnel Costs

We separated Occupancy Costs from All Other Nonpersonnel Costs and treated them as
a separate population. We randomly selected one month of Occupancy Costs from
FYs 2001 and 2002 for our review.

We stratified All Other Nonpersonnel costs into nine cost categories: (1) Contracted
Costs; (2) EDP Maintenance; (3) Equipment Rental ; (4) Equipment Purchases,
(5) Communications Costs; (6) Applicant Travel; (7) DDS Personnel Travel; (8) Supplies
and (9) Miscellaneous Costs. We then extracted certain debit transactions from the EDP
Maintenance and Miscellaneous Costs categories that represented charges for non-DDS
Personnel. From the remainder of All Other Nonpersonnel costs, we selected a stratified
random sample of 50 items from each FY based on the percentage of costs in each
category to total costs (excluding occupancy).




                                         B-4
                  Appendix C

Agency Comments
           -----Original Message-----
           From: Jamison, Jim
           Sent: Tuesday, September 14, 2004 9:54 AM
           To: Schaeffer, Steve
           Cc: Jamison, Jim; ||CHI ARC MOS; ||CHI ARC MOS CD; ||CHI ARC MOS CMR; ||CHI ORC; ||CHI OIG
           Audit; ^DCDISP Audit; ^DCFAM AMLS Controls; ^DCO Audit; McMullen, Theresa; Kalmoe, Dean; Wise,
           Ray; Roers, Wally; Moskop, Mark
           Subject: Comments on Draft Report -- Minnesota DDS Administrative Costs Audit




 September 14, 2004                                                     Refer To: S2D5G2
 Refer


 To:       Assistant Inspector General
           for Audit

 From:     Regional Commissioner
           Chicago

Subject:   Draft Report of Administrative Costs Claimed by the Minnesota Bureau of Disability
           Determination Services (Your Request for Comments E-Mailed August 30, 2004) -- REPLY


           Thank-you for the opportunity to comment on the subject report (A-05-04-14036).

           We appreciate the efforts of your staff in conducting such a comprehensive review of DDS
           activities. We have completed our review and concur with all five of your staff’s findings.

           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312.575.4212.



                                                        /s/
                                                   James F. Martin




           cc:   Deputy Commissioner for Operations
                 Deputy Commissioner for Finance Assessment and Management
                 Deputy Commissioner for Disability and Income Security Programs
                Appendix D

DEED Comments
September 13, 2004

To:           Steven L. Schaeffer, Assistant Inspector General for Audit, SSA
              Mark Bailey, Director, Central Audit Division, SSA

From:         Dennis Yecke, Deputy Commissioner, DEED

Re:           OIG Federal Audit; A-05-04-14036 (08/30/04)

Dear Mr. Schaeffer:

The following is our written comments to your recommendations in the draft
report Administrative Costs Claimed by the Minnesota Disability Determination
Services (A-05-04-14036).

Recommendation 1.     Ensure that funds drawn from a FY ASAP account
identification number are used only to pay expenditures incurred during
the same period as the account identification numbers FY reporting
period.

        We agree. We will draw funds from the appropriate year.

Recommendation 2.     Develop and implement a contingency plan that is
in accordance with SSA instructions.

       We agree. The State of Minnesota has directed all state departments to
use business continuation plan software known as LDRPS. The DDS is
actively working with the department at this time on completion of an LDRPS
plan. Printed reports generated from a completed LDRPS plan will fit all of the
requirements noted in the referenced POMS section, DI 39566.050. Since
some of the document entry into the LDRPS database is contingent on
assistance from Parent Agency security employees, the DDS will need to
continue working with the Parent Agency toward completion of the LDRPS
generated plan. The plan is scheduled to be completed by December 31, 2004.

Recommendation 3.         Identify an offsite electronic data storage facility.

       We agree. Starting in September 2004, daily backup tapes will be stored
at a separate, offsite, location of the Parent Agency.

Recommendation 4.      Perform a risk assessment to determine if an
intrusion detection system is needed to properly secure the DDS’s office
space as outlined in the DDS Security Document.

        We disagree. It is our contention that the current security measures



                                        D-1
Steven L. Schaeffer
September 13, 2004
Page 2

once augmented with the additional cameras that have been requested (the
request is still pending at SSA) adequately meet the intent of the referenced
DDS Security Document and that an additional risk assessment is not
necessary.

      The MN DDS has an electronic locking system in place for all entrance
and exits to the DDS. Entry using an access coded card is electronically
recorded into a WIN-PAK database. During the duration of the audit, DDS
upgraded its security to include 10 color video cameras which record to a one
terabyte caliber (installed in late February, 2004). Each entry and emergency
exit has at least one camera which records a picture every two seconds. We
currently have a request pending at SSA to increase the number of cameras to
allow coverage of other sensitive areas of the office such as the electrical closet,
the AS/400 room, the phone closet and the server room. Upon approval,
additional cameras will be installed and added to the caliber.

      Various staffing issues affect the feasibility of an intrusion detection
alarm. At various times, our system’s employees need to access the work space
during non-working hours (computer maintenance). Adjudicators work an
abundant amount of overtime throughout the year, when approved by the
Regional Office. An intrusion detection alarm would create a new issue for our
landlord which is not currently addressed in our lease.

     In view of our camera monitoring and recording, on-site building security
guards 24/7 and personnel issues, we assert that our current security measures
adequately meet the intent of the referenced DDS Security Document.

Recommendation 5.     Perform a risk assessment to determine if a
perimeter security measure is needed for the secondary entrance door, for
example a peephole, security window or camera as outlined in the DDS
Security Document.

      Please see reply for #4.

Sincerely,



Dennis J. Yecke
Deputy Commissioner

cc:   Matt Kramer
      Wally Roers
      John Stavros
                                        D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
      Mark Bailey, Director, Central Audit Division, (816) 936-5591

      Teresa Williams, Audit Manager, (312) 353-0331

Acknowledgments
In addition to those named above:

      Robert Lenz, Senior Auditor

      Anthony Lesniak, Auditor

      Ken Bennett, Information Technology Specialist

      Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-04-14036.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
